<html>
<title> - OVERSIGHT HEARING ON THE VIEWS AND VISION OF THE NEW CHIEF OF THE FOREST SERVICE, DALE N. BOSWORTH</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




VIEWS AND VISION OF THE NEW CHIEF OF THE U.S. FOREST SERVICE, DALE N. 
                               BOSWORTH

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 15, 2001

                               __________

                           Serial No. 107-28

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
72-363 PS                   WASHINGTON : 2001


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 15, 2001.....................................     1

Statement of Members:
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado, Prepared statement of...................     1
    Otter, Hon. C.L. ``Butch'', a Representative in Congress from 
      the State of Idaho, Prepared statement of..................     6

Statement of Witnesses:
    Bosworth, Dale N., Chief, Forest Service, U.S. Department of 
      Agriculture................................................     2
        Prepared statement of....................................     4

 
   OVERSIGHT HEARING ON THE VIEWS AND VISION OF THE NEW CHIEF OF THE 
                    FOREST SERVICE, DALE N. BOSWORTH

                              ----------                              


                         Tuesday, May 15, 2001

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 3:34 p.m., in 
Room 1334, Longworth House Office Building, Hon. John E. 
Peterson presiding.
    Mr. Peterson. The Subcommittee on Forests and Forest Health 
will come to order. The Subcommittee is meeting today to hear 
the views and visions of the new Chief of the Forest Service, 
Dale Bosworth.
    [The prepared statement of Mr. McInnis follows:]

  Statement of The Honorable Scott McInnis, Chairman, Subcommittee on 
                       Forests and Forest Health

    Today we will be discussing the future of our national forests with 
Dale Bosworth, the new Chief of the Forest Service. Chief Bosworth is 
not an unknown element. For the first time in a great number of years 
we now have a Chief who has worked at every level of the agency, who is 
recognized for his ability to balance divergent interests without 
compromising scientific principle, and who is highly regarded by the 
rank-and-file of the agency as a person of high integrity and 
intelligence.
    Based on his track record, it is clear that this is a Chief who 
will not be beholden to any one interest group or political party. 
Rather, it seems, he will be a Chief whose primary concern will be the 
long-term health and sustainability of the forests themselves.
    This could not come at a more critical time with the Forest Service 
finding itself in perhaps the most embattled period in its one hundred 
year history. Never before has the Forest Service been under greater 
stress and less able to carry out its goal of ``caring for the land and 
serving people.'' Today, in fact, the Forest Service is struggling to 
accomplish either. So this may be the last chance to salvage a proud 
and dynamic agency.
    This is a tall order for the new Chief, but one I believe that he 
and the agency are up to, that is, of course, with a little help from 
Congress. With this in mind, I look forward to working with the Chief 
through the challenges and opportunities of these times.
                                 ______
                                 
    Mr. Peterson. Does the Ranking Member have a statement he 
wants to make?
    Mr. Inslee. No, thank you, Mr. Chairman.
    Mr. Peterson. I would like to welcome Dale Bosworth, Chief 
of the Forest Service, to us today, and we are going to let you 
proceed with your statement. We want to welcome you and let you 
know we are here to learn from you and work with you in your 
visions of the Forest System, so please feel free to proceed.

    STATEMENT OF DALE BOSWORTH, CHIEF, FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Bosworth. Mr. Chairman and members of the Committee, 
thank you for the opportunity to be here. I am really looking 
forward to this hearing. Actually, it is a good opportunity for 
me to discuss the direction that I would like to move the 
Forest Service in and to answer your questions. I have a full 
statement that I have submitted, and I just want to summarize a 
few things very quickly so we can get to the questions.
    But first I would like to say that I really do appreciate 
the chance to be here, and I am pleased that Secretary Veneman 
had the confidence in me to select me for the position of Chief 
of the Forest Service. And I also want to take this time to 
thank the thousands of Forest Service employees that are out 
there, that are doing just outstanding work, in my judgment. I 
want to thank them for their support and their encouragement to 
me here the last few weeks, and I expect that to continue.
    I would also like to thank the Subcommittee in advance for 
working with me during this transition, and I think that if we 
work closely together, that we will be much more productive.
    There are just a few things that I want to talk about. I 
want to talk about the priorities that I am going to be looking 
at over the next several months, and the first thing has to do 
with trying to get work done on the ground. I believe that the 
Forest Service is measured by the public in doing work on the 
ground. They don't measure our abilities by the amount of paper 
that we produce. They don't measure us by how much we talk. 
They measure us by results.
    I want to get a focus in the organization to get more work 
done on the ground, to do what we say we are going to do, and 
we need to work with people and communities in order to do 
that. That is a high priority for me. My view is that we need, 
the work that we do in our national headquarters needs to be 
work that will facilitate our folks getting the job done on the 
ground, and so making the connection between the ranger 
district and the Washington office or the national headquarters 
is extremely important.
    I also want to focus on a connection between the three 
parts of our organization, the Research Branch, the State and 
Private Forestry Branch, and the National Forest Systems 
Branch. If we want to be effective, we need to have those three 
parts of our organization working effectively together, where 
the kind of research we are doing is going to be research that 
is going to be used by other public land managers and others, 
and our State and Private Forestry programs will be effective, 
and I believe they are effective now, but more effective in 
terms of helping private landowners do the things that they 
need to do on their land, giving good advice and helping the 
private forest landowners.
    Local decisionmaking is something that I am going to put 
some focus on. In order to be able to get this work done on the 
ground, we are going to have to get back to where we have 
district rangers and forest supervisors making the decisions on 
the ground. And in order to do that, we are going to have to 
work closely with the public. I think that all of our folks 
work real hard at trying to engage the communities and trying 
to come up with solutions in a community collaborative way, but 
oftentimes some of the processes that we develop at our 
national headquarters seem to get in the way of some of those 
local collaborative decision-making processes.
    While I say that, I don't want to imply that focusing 
locally means that we exclude people at the State or National 
level, because I believe that the policies that do get set by 
Congress and by the Administration, by my office, set 
sideboards for how we should proceed. And then at the local 
level you work with people, to work within those sideboards to 
come up with solutions that are going to work for the community 
and they are going to also work for the national audience in 
general.
    We are going to be spending a lot of time working on 
accountability. Accountability is both financial accountability 
and performance accountability. We need to have our financial 
management in order. We have set off on a path to do that about 
3 years ago, to get our financial management in order, and I 
think that if we proceed on that course, we will be in pretty 
good financial health here in just another year or two.
    But the other side of accountability is performance 
accountability, and to me performance accountability is doing 
what we say we will do. I worry that we have spent so much of 
our focus and talked so much about the financial aspects of 
accountability, that we have maybe moved away a little bit from 
performance.
    I don't have the figures exactly here, but I know that in 
the past couple of years we have had some timber volumes, for 
example, that we have been expected to produce, and we have 
fallen short of that. I would rather take the approach that we 
will tell you how much we can produce, and if we are able to do 
that--well, I won't be telling you something I don't believe to 
be the case. That is sort of putting it simply. If I tell you 
that I believe that we are going to be getting a certain amount 
of timber volume out, for example, then what I want to do is 
our very best to do that and be held accountable for that.
    Part of the accountability also, I think, is our Washington 
office doing a better job of oversight of the regions, and I 
think that I would like to put into better place a system that 
we go to the regions, we review the work that they are doing, 
we find out whether things are working or not working, hold 
people accountable for getting the job done, and I expect 
regional foresters to do the same thing with forest supervisors 
and so on, down to district rangers. And again, I think by 
doing it that way we can reestablish the connectivity that we 
need to have. I expect the same kind of accountability to take 
place at the research stations and the State and private area.
    I want to mention just very briefly the National Fire Plan, 
which has been an important priority for us now for this last 
year, and is going to continue to be an important priority. 
Congress gave us a good, healthy increase in dollars last year, 
and we need to be able to perform.
    We are focusing the work around these communities where we 
are going to reduce the fuel hazards. We are working hard at 
restoration of areas that burned last year. We have hired a 
number of employees to bring us up to the most efficient level 
for firefighting. We have been working very closely with the 
States, both the State foresters and the State governors and 
other people in the communities, to make sure that our 
firefighting force is going to work together. We need to make 
sure that we think about both the State, the other Federal 
agencies, as well as the Forest Service when we are thinking 
about a firefighting force, and I believe that that is how we 
are operating right now, so we are going to continue to move 
forward with that.
    Now, that is a very brief kind of outline on sort of the 
things that I said in my statement, but I would like to really 
focus on questions that you might have, and so once again I 
would like to say that I appreciate the opportunity to be here 
and I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Bosworth follows:]

 Statement of Dale N. Bosworth, Chief, Forest Service, U.S. Department 
                             of Agriculture

    Mr. Chairman and Members of the Subcommittee:
    I appreciate the opportunity to be here today to talk about my 
views and vision for the Forest Service. Let me also say, as Chief of 
the Forest Service for only a few weeks, I am deeply honored to have 
been selected.
    First, I am grateful to Secretary Veneman for her confidence in me, 
and I thank the dedicated, hard working employees of the Forest Service 
for their support and encouragement. Let me also express my 
appreciation in advance to you Mr. Chairman, Mr. Inslee, and members of 
the Subcommittee for working with the Forest Service and me during this 
transition.
    I would like to start my testimony by saying a few words about 
myself and my life-long commitment to the Forest Service. I have worked 
in the Forest Service for 35 years. I am what in the agency is often 
called a ``Forest Service brat,'' a title I inherited because my father 
was also a Forest Service employee. It is fair to say I have a lifetime 
of being part of the Forest Service culture, traditions, and debates 
about management of America's forests and rangelands. Coming from this 
background, I am truly humbled by the duties entrusted in me as Chief 
and I am eager to lead this agency through challenging times.
    In my testimony today, I will briefly talk about a couple of themes 
of my leadership. First, I will discuss the fundamentals central to our 
ability to get the job done providing the support and resources for 
``on-the-ground'' work, reconnecting the headquarters with the field, 
and empowering local decision-making. Next, I will discuss agency 
accountability. I will talk about accountability not only in the 
implementation of financial reforms, but also from the standpoint of 
getting our work done. I also want to talk about how the National Fire 
Plan, with its strong focus on protecting communities from the dangers 
of catastrophic fire represents a broader focus on how, in general, we 
need to manage the Nation's forests and rangelands to protect 
communities and natural resources, and provide services and products on 
a sustainable basis.
                         management priorities
    Mr. Chairman, as a Regional Forester in two regions over the past 7 
years, and in many other positions in the Forest Service, I have 
developed an appreciation for the job being performed on-the-ground by 
our employees, the foundation of our credibility with the public. This 
applies to researchers, employees on the National Forests and 
Grasslands, and employees who provide support to State, local, private, 
Tribal and international stakeholders. It is the responsibility of 
employees in the national headquarters and at the regional offices to 
ensure the best possible support is given to that on-the-ground job. 
Over the next several months, I want to emphasize what I think is 
essential in establishing a ``reconnection'' between the headquarters 
and the field. I want to make sure that ongoing initiatives to improve 
financial compliance and track natural resource information do not 
unintentionally hinder employees from doing their work. This assessment 
of ongoing initiatives does not alter the agency's commitment to moving 
forward with achieving financial accountability.
    One of the greatest strengths of the Forest Service is the ability 
of line officers at the forest and ranger district level to make and 
implement decisions that take local community interests into account. I 
am concerned that in recent years this ability has been limited by an 
over-reliance on top-down initiatives that have dis-empowered local 
decision making, and have prevented the greatest possible funding from 
reaching the field unit level. I firmly believe that each field unit 
has different needs. A single management prescription cannot produce 
healthy forests and rangelands that provide opportunities to deliver 
goods and services across the wide array of environments in which our 
National Forests and Grasslands exist.
    Along these lines I believe we need to adjust the role of our 
Washington Office. Instead of providing specific management direction, 
the goal of the Washington Office needs to be one of providing broad 
program and policy direction and then the necessary programmatic level 
of review to ensure that we are accountable for accomplishing funded 
objectives and achieving desired results.
    In the immediate future, I will work closely with Secretary Veneman 
to assess recent initiatives to make sure the ability to manage and 
protect our diverse resources is not adversely affected. We will assess 
the agency's strategic goals and objectives to ensure full 
compatibility with local forest plans and priorities. To get the 
agency's work done it is critical to ensure funds held at the 
headquarters and regional levels are only those funds that are 
essential to accomplishing our mission. In recent years the amount of 
funds taken off the top has grown to unprecedented levels. While the 
majority of this funding ultimately goes to the field, too much does 
not. Too little of this money goes to projects that directly support 
on-the-ground accomplishments. Two weeks ago the Forest Service, with 
help from field line officers, began the most intensive screening of 
this off the top funding in years. I will personally make the final 
decision on funds held at the headquarters level.
    I also intend to take a close look at the organizational leadership 
structure of the Forest Service. I want to make sure our line officers 
are empowered to make and implement natural resource management 
decisions at the field level, in the best tradition of our 
decentralized organization, while assuring that systems used in the 
field meet best business practices and are consistent and comply with 
national law, regulation, and policy. I intend to be available to all 
employees at all levels of the organization so they can give me their 
insights. One of the first things I did as Chief was to have the 
Regional Foresters and Station Directors report directly to me, so I 
can personally maintain day-to-day contact with the field.
                             accountability
    Another key theme of my leadership will be to continue the 
improvement of our financial accountability that has been a significant 
emphasis of the agency for the past three years. Under the direction of 
Secretary Veneman, we will continue on the path of bringing our 
financial management and accounting of agency assets into full 
compliance with the best business management standards.
    However, as I mentioned earlier, being accountable is much more 
than having good financial accountability. It is delivering on program 
commitments.
    I intend to provide the agency's line officers with the resources 
to perform on-the-ground work, and systems that allow them to 
efficiently report their accomplishments. We must emphasize performance 
accountability as strongly as we emphasize financial accountability.
                           national fire plan
    As I mentioned, one of our greatest current needs is to address the 
threat to our forests and communities from the enormous build-up of 
hazardous fuels that has occurred in the National Forests and 
Grasslands. As a Regional Forester, I personally witnessed the 
catastrophic wildland fires that occurred in the Bitterroot Mountains 
of Montana last year.
    The National Fire Plan is a good example of what can be achieved 
when Congress and the Administration work together. It also is a good 
example of how the Forest Service can integrate the full array of 
agency programs to improve the health of our Nation's forests by 
providing the resources needed to protect communities and natural 
resources from wildland fires and invasive species. Additionally, 
through our outstanding Research and State and Private Forestry 
programs, the Fire Plan provides emphasis to developing technologies 
that will increase the use of forest products by communities and 
industry. These programs have the potential to make it economically 
beneficial for the Forest Service and private industry to restore the 
health of the land by increasing the value and use of traditionally 
non-or low valued forest products. The balancing process of restoring 
forests and protecting communities will integrate local community 
employment and expanding local economic capacity with the generation of 
forest and range products to accomplish restoration objectives.
    Working with the States and local communities we have made a good 
start on implementing hazardous fuel reduction projects, increasing our 
fire suppression capabilities, and providing financial and technical 
assistance to assist communities to address wildfire concerns in the 
urban-wildland interface.
                               conclusion
    Mr. Chairman, Secretary Veneman has made clear to me that she wants 
the Forest Service to be a world-class provider of goods and services 
for America. I know the agency has that capability. To that end, I 
intend to personally devote my attention to achieving this goal through 
emphasis on the management priorities I have described and continued 
aggressive adherence to improved performance accountability. Let me 
again say that I am deeply honored to be the Chief of the Forest 
Service. I look forward to working with you and thank you for your 
support. I will be happy to answer any questions.
                                 ______
                                 
    Mr. Peterson. Well, thank you very much. We certainly look 
forward to working with you.
    We are going to start with Mr. Otter from Idaho for 5 
minutes.
    Mr. Otter. Thank you very much, Mr. Chairman. I was so 
excited when I heard that Mr. Bosworth was going to be here, 
and I wanted to be the first to ask questions and hear his 
testimony, that I got here yesterday, just to make sure that I 
was going to get to be first.
    [Laughter.]
    Dale, good to have you here before the Committee, and good 
to have you on board. And let me just say, Mr. Chairman, that I 
do have an opening statement that I would like to submit for 
the record, without objection.
    Mr. Peterson. Without objection.
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Thank you, Mr. Chairman, for giving me and other members of the 
Committee the opportunity to discuss critical forest issues with our 
new Forest Service Chief. As with his other important appointments, the 
President's choice to head the U.S. Forest Service is top-notch.
    Although he was born in California, I'm sure he won't mind if I'm 
much more impressed that he received his Bachelor of Science in 
Forestry from the University of Idaho--and spent the better part of his 
career as a forester in Northern Idaho, working his way up the chain in 
positions that make him experienced and qualified to serve as Forest 
Service Chief.
    Idahoans know Dale Bosworth. He has dedicated his entire 35-year 
career in the Forest Service--beginning as a forester for the St. Joe 
National Forest, then as district ranger on the Clearwater National 
Forest in Northern Idaho. Most recently, he has served as Northern 
Regional forester for an area covering northern Idaho, Montana, North 
Dakota, and northwestern South Dakota--areas that were devastated by 
last summer's wildfires. While the challenges will come as fast and 
mighty as water out of a fire hose, I believe Dale will seek solutions 
in a practical and effective manner, and I'm pleased to have him there.
    Like the vast majority of my constituents in Idaho, I am 
particularly concerned--and hope Chief Bosworth will address the 
immediate threat to Idaho because of unhealthy forests, unwise 
management practices, and dangerously dry conditions. We simply cannot 
survive another year of devastating wildfires like those of last summer 
that destroyed millions of acres of forests, and has created even more 
problems of disease and insect infestation.
    I also am hopeful that Chief Bosworth will meet with me and the 
particularly distressed timber-dependent communities in my District--
such as Cascade and Emmett--where up to 400 jobs will be lost due to 
the likely closure of mills there. Many of these people--like Dale--
have spent most of their lives living and working to maintain healthy 
forests, and we simply cannot turn our back on them. Aside from the 
economic concerns, I am convinced that we must strengthen locally-
driven partnerships to thin and remove the fuel buildup in these areas, 
which is vital to maintaining healthy forests and reducing the risk of 
wildfires.
    Access and locally-driven management of the forests--and private 
lands adjacent to forests--is critical. I strongly agree with Judge 
Edward Lodge's decision last Thursday that the previous 
Administration's forest roadless policy was flawed and did not follow 
the law. The Bush Administration has now been given a fresh opportunity 
to not only provide protection to areas of the forests that the 
roadless rule intended, but to also ensure, on a forest-by-forest 
basis, that the most critical concerns are addressed with full local 
decisionmaking, rather than through ``top-down,'' ``one-size-fits-all'' 
management from Washington, D.C.
    Thank you, Mr. Chairman, and welcome, Chief Bosworth.
                                 ______
                                 
    Mr. Otter. Mr. Bosworth, you have to know how encouraged 
Idahoans are, where 65 percent of our land mass, 21.5 million 
acres, are national forests. I know I was impressed with the 
fact that you were born in California and still survived Idaho 
for the great deal of time that you spent up there, including 
getting your degree there at the University of Idaho Forestry 
School.
    But I say again, with the closure of 32 mills in Idaho 
during the Clinton Administration because of basically shutting 
down the thinning of the forest and the management of the 
forest on a health basis, it is very encouraging to Idahoans 
now to have somebody at the helm that understands from the 
ground up what the problems are, where we didn't have that the 
last 8 years.
    I want to know how soon we are going to start seeing this 
ground-up, this attention to detail at ground zero. Are you 
going to start having regional meetings out there that we can 
all participate in, and come out and have these hearings out 
there, Chief? How are we going to accomplish that?
    Mr. Bosworth. Well, first, I am more than willing to have 
meetings and hearings out in the field. The thing that I need 
to do internally is to work with the regions and work with the 
forests, in which I do intend to get to all the regions as 
quickly as I can and have some discussions about how we are 
going to be able to pull this off. And when I say ``pull this 
off,'' I am talking about again getting the focus to where 
decisions are going to be made more locally.
    We are looking at the process we have in place right now at 
the national level that may inhibit that. We are looking at 
what kind of processes we can change. I would like to say that, 
boy, you are going to see a big difference next week, but that 
would be untruthful. I think that we are going to see a slower 
evolution of change, because we are going to have to bring 
people along with us as we start making some of these changes.
    Mr. Otter. Chief, one of the problems that I see in that is 
that some of that has run into a serious case of anemia over 
the last 8 years, where you have actually had people on the 
ground making decisions, and I am kind of concerned about the 
decision-making muscle that may not be out there because they 
haven't been allowed to flex that muscle.
    Most of the decisions that I know that affect the St. Joe 
and the Clearwater and the Payette and the Boise basically are 
coming not off the banks of the Snake River or the Clearwater 
River, but off the banks of the Potomac. And I am really 
concerned that when we do start doing the management work, that 
we do a good job, and one that we can be proud of 
environmentally and one that we can be proud of with the 
national treasure that we have in these national forests.
    Do you think that you have the personnel in place today to 
make those kind of decisions and to offer that kind of 
direction and leadership?
    Mr. Bosworth. Yes, we have. I believe that completely. If 
you get an opportunity to meet with some of our district 
rangers out in Idaho or any of the States, any of the national 
forests, and our forest supervisors, and get an opportunity to 
have some dialogue with those folks who are making the 
decisions at the local level, I think you will know that, as 
well.
    Now, I don't want to imply that I think we have all the 
skills in place to meet all the kinds of requirements that we 
have through NEPA, through ESA, the Endangered Species Act, and 
all those things, but we do have the folks out on the ground 
that have the skills to make decisions, the desire to make the 
decisions, that have the management ability to bring people 
together and to cause those things to happen. What we have to 
do in here is to find ways to give them the flexibility to 
accomplish that.
    Mr. Otter. Chief, do you think you can build a working 
relationship as a partner with NEPA, with the ESA and all the 
other agencies that are going to have something to say? We 
haven't had a partnership, and we keep looking round for a 
place to surrender. Every time we come up with a problem, we 
don't know which agency is the lead agency in charge. And once 
we get past the Army Corps of Engineers or the Clean Water Act, 
then we run into NMFS. And then we get through with NMFS, and 
then we run into U.S. Fish and Wildlife, or vice versa. Do you 
really think, and are you prepared to try to build a 
partnership with those folks?
    Mr. Bosworth. Well, yes. There are several things I want to 
say about this.
    First, yes, we do need to build a partnership with the 
agencies that also have a legal responsibility for what takes 
place on national forest lands. It makes it more difficult, 
obviously, when the power is sort of shared, I guess is the way 
to say it, or when our rangers are sort of regulated in one way 
or another.
    I think there are things that can be done to help that. 
There are things that we can do to streamline those processes. 
I think there are things that we can do to build better 
relationships with other agencies. But I also believe that 
those changes are going to only be incremental in terms of 
being able to help get the work done on the ground.
    Frankly, we spend a huge amount of time and energy and 
effort doing analysis for the purpose of being able to win in 
court. It may not add a whole lot of value to the decisions 
being made or that need to be made, but because of the case law 
that has evolved over the years on the National Environmental 
Policy Act, for example, there is a huge, high hurdle for our 
folks to leap over in order to be able to win in court.
    As we work with communities and we collaborate in a way to 
try to bring people to the table and come up with solutions, it 
is discouraging to those people when it takes us then 2 years 
to work our way through the process to make a decision. Now, 
again, that doesn't mean that we don't have people who are 
capable of making the decision or people who want to make the 
decision, but the question is how long it takes to work our way 
through the process that we have to work through. And so what I 
want to do is work hard at trying to find ways of reducing 
that.
    Mr. Otter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Peterson. We will have another round, and you can 
prepare for that.
    We have been joined by the Ranking Member of the Full 
Committee, Mr. Rahall from West Virginia. Did you have an 
opening statement you wanted to make?
    Mr. Rahall. Thank you, Mr. Chairman, if this is the 
appropriate time, but I don't want to jump in front of my 
colleagues who have been here.
    Mr. Peterson. The Ranking always ranks.
    [Laughter.]
    I recognize the gentleman from West Virginia.
    Mr. Rahall. Thank you, Mr. Chairman. Mr. Chairman, I want 
to welcome the new Forest Chief to the Subcommittee today, and 
certainly congratulate him on a distinguished career, having 
served at just about every level, I guess, and being a ``forest 
brat'' as he has described himself.
    Your agency, as you no doubt know, has always been a 
challenged agency, often in conflict as to how to achieve your 
multifaceted mission and often buffeted by changing political 
winds, so I guess it is heartening to see a career professional 
now at the helm, and I am sure that you can rise to the 
challenge.
    I would like to raise two issues briefly in my time 
allotted. The first involves the forest development road 
system. As you may or may not know, I have been advocating the 
pressing need for greater resources to address the critical 
maintenance and capital improvement backlog of this 386,000-
mile system.
    For its part, you have responded with the proposal to 
establish a 60,000-mile network of public Forest Service roads 
that serve the public as collector and arterial routes. Yet, at 
the same time, the proposed budget would barely keep up with 
the annual increase in maintenance needs, let alone address the 
backlog itself.
    So I guess my first question, Chief Bosworth, then is how 
do we devise a financing mechanism to tackle this problem? 
Because until we do, the roadless policy currently under attack 
in courts does not make economic or environmental sense, until 
we are able to tackle the budget problem.
    Let me go to the second. While you are thinking of that, I 
will also put another issue on the table, and that involves the 
county payments. As you are aware, last year Congress passed 
legislation aimed at stabilizing the amount of money forest 
counties receive as part of their share of receipts, such as 
from timber sales. The new law, however, gives the counties two 
options on how to continue to receive these receipts, and the 
election of a given option has the potential to increase or 
decrease their payments.
    Now, the first such election, as I understand it, has to be 
made by September 30th of this year, and what I am finding is 
that many of the counties are simply not aware of this 
situation. So what I think is needed, and again ask your 
comments, is a county outreach program, aggressive outreach to 
these county governments so that they understand this new 
procedure and know how to go about it.
    Mr. Bosworth. Okay, I will start with the roads first, and 
it seems to me that the best approach to deal with the backlog 
of roads is, first you need to figure out what roads you want 
to keep, what standard you want to keep those. That means that 
some roads by definition are no longer needed, and need to be 
decommissioned. I have been around parts of the country where 
we have a lot of roads out there that most people would agree 
are no longer necessary.
    Now it also can be very controversial when you talk about 
decommissioning roads, but there are places there where we have 
a number of miles of roads, some of them that don't get used, 
some of them that have got trees growing back up in them, or 
brush, that we would be best off just decommissioning those 
roads. They wouldn't be part of the 383,000 miles. They 
wouldn't be part of the backlog for maintenance. And they also 
would be in better condition when we have high runoff.
    Mr. Rahall. But can that be done within the budget, the 
budget request?
    Mr. Bosworth. Well, obviously the amount of work that we 
are going to be able to do on decommissioning would depend upon 
the budget, but we can work our way through that. We are 
getting funding every year to decommission roads, maybe not at 
the rate that we would like to, but that is one place that we 
can make a difference. Another place--
    Mr. Rahall. Excuse me, though. But you did not say it could 
be done within the current budget request. You said it would 
depend on what that request ends up being. Is that correct?
    Mr. Bosworth. Well, yes. When I say whether it could be 
done at the current, it depends on how fast you want to do it. 
You know, if we had the dollars to do all the decommissioning 
in 1 year, we couldn't do that, either, so over a reasonable 
period of time, and I haven't got that calculated out to tell 
you, based upon our current budget, how long that would take. 
But in a reasonable period of time, we should be able to 
decommission the roads that we need to decommission. We have 
got to go through the environmental analysis to do that, work 
with the public, decide which roads those are.
    But that is just one part of it. The other, I think, is to 
find other ways of funding the backlog of maintenance, and I 
think that competing for some of the T-21 funds, for example, 
would be one way that we could help supplement some of the 
dollars. So we are just going to have to continue to look for 
innovative ways to try to take care of the backlog, because it 
is a challenge that does have effects, as you pointed out.
    As far as the county payments, I guess I have been under 
the impression that our folks, and I believe they are, are 
doing a pretty good job of outreach to the counties right now. 
Now, there may be some places that we are not doing as good of 
a job, and that some of the people, some of the county 
commissioners, county supervisors, aren't as aware of what 
their choices and options are. And I would be happy to get with 
you and try to identify some of those places, and look for some 
other ways to try to reach those folks.
    Mr. Rahall. I would appreciate that, Chief Bosworth, 
because again, as I close, let me just say that I note your 
career has been in the West, but we do have national forests in 
my State of West Virginia and throughout the East, and they do 
have their own sets of challenges and promises, and your 
willingness to work with us on that outreach program will be 
accepted. I appreciate it.
    Mr. Peterson. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Chief, I am just finishing a book called ``A Walk in the 
Woods'' by a man named Bill Braxton, a very fine book about 
hiking the Appalachian Trail, and in that book he mentions that 
New England in 1850 was 30 percent forest and today it is 70 
percent forest land. And I had read a similar figure earlier in 
the Christian Science Monitor, saying that New England was 
roughly almost 70 percent in forest land.
    And in my own State of Tennessee, I read in the Nashville 
News Sentinel not long ago that in 1950 Tennessee was 36 
percent in forest land, and today it is 50 percent in forest 
land. There have been similar increases in most States around 
the country, and yet I think if I went to any school in this 
country and asked the children there if the amount of forest 
land had gone up, way up or way down in the last 50 or 100 
years or 150 years, they would almost all say that the amount 
of forest land had gone way down.
    And there seem to be, we seem to have a lot of people in 
this country who think it is really bad if we cut any trees. 
And yet I don't think they stop to think that if you don't cut 
trees, that our homes go way up in price, houses go up in 
price, furniture, every product made out of paper, and you end 
up destroying jobs and driving up prices and hurting the poor 
and the lower income people in this country.
    And so what I am saying to you, I think there is a lot of 
misinformation out there about forests, and I hope that you 
would consider--I am told that the Forest Service has about 
34,000 employees. I don't know how accurate that is. But I wish 
that you would consider asking each of those employees to go 
one time a year into a middle school or a high school and speak 
to a class, and tell the story of the forests and how important 
wood and paper products are to this country, and to hopefully 
do away with some of these misconceptions, and tell them that 
the amount of forest land has gone way up and that we do 
occasionally need to cut some trees to have healthy forests, 
for instance. This attitude that we should turn all of our 
national parks and all of our national forests into untouched 
wilderness, I think is very bad from almost every standpoint 
that you can think of.
    Would you consider doing something like that?
    Mr. Bosworth. Well, first I would like to say that we have 
a lot of employees right now that do visit middle schools and 
high schools and do environmental education kinds of programs. 
One of the challenges is that most of those 34,000 employees 
live in the rural areas and the smaller communities.
    We have some forest headquarters and districts that are in 
larger communities, but they often live in places where many of 
the people already, many of the kids, even, already have an 
understanding of the national forests and the woods, and they 
hear a lot more of those kinds of messages. We are not as 
effective in getting into some of the more urban areas with 
some of the environmental education messages.
    Mr. Duncan. Well, I think you do have several thousand, 
though, that are in urban areas. I mean, my district is mostly 
an urban/suburban district in and around Knoxville, but we also 
have a big part, about half of the Great Smoky Mountains 
National Park, and about half of the Cherokee National Forest. 
And so I think it would be a good thing.
    But let me ask you this: We had two hearings in this 
Subcommittee, one in early '98 and one in early 2000, in which 
they told us that because we are not even allowing the cutting 
or the removal of even half of the dead and dying trees in our 
national forests, that we were having this huge fuel buildup on 
the floor of the forests. And we were told by some people from 
the Forest Service and others that there were 39 million acres, 
almost 40 million acres in immediate danger of catastrophic 
forest fires.
    Now, we were told that in early '98 and again in a hearing 
in early 2000, and then last summer those predictions came true 
and I think, what was it, 700,000 acres burned? I saw one 
estimate that almost $10 billion total damage was done. And I'm 
wondering, are we going to have some new policies hopefully 
that will allow the removal of more of the dead and dying 
trees, and that more will be done to, instead of beefing up the 
number of firefighters, being able to go into the forest to 
keep those forest fires, or at least many of them, from 
starting in the first place?
    Mr. Bosworth. Just one correction on the numbers. Across 
the country last year I believe there was about 7 million acres 
of burn, not--
    Mr. Duncan. Seven million acres, I am sorry. I remembered 
the seven. That is a lot of acres. And the shame of it is, if I 
went into one of the national forests and burned one tree, I 
guess I could be arrested, but because of the policies that the 
last Administration had, we burned these 7 million acres and 
caused $10 billion damage. And we need to change some things 
and do some things so that we don't burn millions of acres in 
the future.
    Mr. Bosworth. I definitely believe that active management 
of the fuels is what we need to do, and it is what we are 
focusing on through the National Fire Plan. And the problem 
with the fuel build-up is, it is a problem that has evolved 
over a long period of time. We have been suppressing fires for 
many, many years in the Forest Service, and believing that we 
were doing the right thing.
    I started on my first fire crew 40 years ago, and any fire 
that started, you know, it was our job to put that fire out by 
10 a.m. of the following day. And now we are finding that the 
amount of fuel that has built up over those years is something 
we can no longer be able to make those kinds of suppression 
efforts and be successful.
    So to me it is going to take a number of things. It is 
going to take removing some of the smaller fuels from the 
forest. It is going to be a job of getting prescribed fire back 
into the national forests, and timber sales is not necessarily 
a bad way in certain cases to also accomplish that. So I think 
it takes some of the thinning, it can take salvage and timber 
sales in certain areas, and prescribed fire, and to help people 
understand in the communities what things they can do to also 
deal with their land, to keep fires from being more 
catastrophic when they hit their property or more destructive 
when they hit their property.
    Mr. Duncan. Finally, I won't ask this as a question because 
my time is up, but I will make a very brief comment that in the 
national forest in my district one of the biggest issues is the 
access and opportunities for recreational use. And I do know 
that people in the Forest Service or Park Service would have 
easier jobs if we turned these areas into untouched wilderness, 
but I hope that you will allow some balance or have some 
balance in your policies so that all these millions of people 
that want to use the national forests for healthy, 
recreational, outdoor purposes will have the opportunity to do 
so and will not be kept out of these areas.
    Thank you very much.
    Mr. Peterson. Yes, we thank you. We now recognize the 
Ranking Member for 5 minutes, Mr. Inslee from Washington.
    Mr. Inslee. Thank you, Mr. Bosworth. Welcome to the 
Committee, and I would like to give you an opportunity to 
express some personal thoughts here. Let me just ask you two 
kind of softball questions.
    Number one, tell us what you think your proudest 
achievement to date has been, with all your great service. I 
would like to know about some of the good work you have done in 
the past. And, two, after you finish your service, what would 
you like the review of your service to be, the number one thing 
you would want to put on your accomplishment list?
    The questions get harder after this, too.
    [Laughter.]
    Mr. Bosworth. Unfortunately, most of the achievements that 
I am proudest of have really been achievements from people that 
worked on my unit. When you are in some of the positions like 
District Ranger, Forest Supervisor, Regional Forester, it is 
the people that are on those units who really get the work 
done, and I have been blessed with having some outstanding 
employees that have done a lot to try to get the job done.
    And I felt like, frankly, the job that our folks did last 
year during the 2000 fire season in the Northern Region of the 
Forest Service, as well as the Intermountain Region, which 
covers another part of Idaho and Utah and Nevada which got hit 
really hard, and are employees that I also know real well, I am 
very proud of the job, the fact that we got through a fire 
season that was as tough as that one was with a minimum--in our 
region no fatalities, there were some fatalities in other 
places--with a minimum of injuries, saved literally thousands 
of homes, worked with other agencies, in just lock step with 
all the States and the other Federal agencies, and did it in a 
way that I think every Forest Service employee ought to be 
proud, and I am proud of them for doing that. While I didn't 
get a lot of soot on me, I still take pride in the work that 
those folks did.
    Now, the second part of your question was--you will have to 
repeat that.
    Mr. Inslee. Yes. Sort of, sitting right now, what would you 
like to be--
    Mr. Peterson. Your legacy.
    Mr. Inslee. --your legacy? Thank you. I appreciate that.
    Mr. Bosworth. I guess it is a little hard to describe but I 
will try to do it. I really didn't take this job to necessarily 
have some great legacy that people would speak about for years 
and years. What I really want to do is help this organization 
really be what it can be, and I think that is a world-class 
provider of services, and I think we can do that.
    If all I accomplish is getting good management, I guess 
what I would say, back into the Forest Service, where we have 
got people that can make the decisions on the ground, where we 
are doing things at the next levels up to actually help 
facilitate work getting done on the ground, where we can reduce 
the amount of process and be efficient and effective, I would 
be thrilled if we could just accomplish that much.
    I am not looking to make some huge change in the way that 
the national forests are managed. I frankly think that the 
evolution of change that has occurred over the years, where we 
have gone into ecosystem management, is a good way. I think 
that restoration of healthy watersheds is good. I think we also 
ought to be able to produce goods and services, which includes 
timber, but that ought not be the driving force behind our 
decisions. And if we can pull those things together, and you 
can get the public with us, then I will feel like I have made a 
really good accomplishment.
    Mr. Inslee. I appreciate that. I want to ask you about the 
roadless area policy, and I am sure you are aware that there is 
some disenchantment with the way the U.S. handled the 
litigation. I just want to ask you about the intentions of the 
Service.
    And I will just tell you the principal source of this is 
the Attorney General's commitment during his confirmation 
hearings where he said, and I quote, ``I will, regardless of 
whether or not I supported something as a Senator, defend the 
rule.'' And I think any fair reading of the response by the 
U.S. Attorney General to this lawsuit was essentially, ``Go 
ahead and do what you want to do, Judge, because we don't like 
it either and we think it's wrong and it ought to be changed.'' 
And I don't think that was defending the rule by any stretch of 
the imagination.
    So I guess the question is, do you intend to instruct your 
attorney, and I guess the Attorney General is your attorney in 
this case, to appeal this ruling, or what litigation strategy 
do you intend to follow?
    Mr. Bosworth. Well, you know, I don't know that the 
Department of Justice would view themselves as taking 
instructions from me, frankly, but I work real closely with the 
Department administration. I am not--let me just talk a little 
bit about where I see the roadless rule.
    First, I want to say that I personally believe that 
roadless values need to be protected, and I think the 
Administration supports that. I believe, in fact, the 
Administration has stated they support that.
    I think there were some problems with the existing rule 
that I believe that we need to make some adjustments to, and 
that is primarily in terms of the kinds of information we had 
for local areas. An example from my perspective would be maps 
that need some corrections, and that you need to have an 
opportunity for local people to feel like they had an 
involvement or they at least had an opportunity to feel like 
they could make a statement about a particular area, and that 
that would be heard and considered, and in the discussions I 
have had with lots of folks, I don't think a lot of people felt 
like they were heard.
    We need to make some adjustments, and a proposal would be 
to make an amendment to the rule where we would be able to 
consider some of that local knowledge of some of those areas. I 
don't have the specifics on what that amendment would look like 
yet. We will come out with something that we propose to the 
public, and take comments from the public, and come out with a 
final amendment to the rule.
    But I think the important thing is here that there is a 
strong support to maintain roadless values, that roadless 
values are important, and that we need to also take into 
consideration the local folks and the local governments in 
being able to have some input into that process.
    Mr. Peterson. We will let you come back to that.
    Mr. Inslee. Thank you.
    Mr. Peterson. Yes, we are going a bit by the time.
    There was a report done by Chief Jack Ward Thomas called 
``The Crazy Quilt of Laws.'' It sort of disappeared. Is that a 
report that ought to be resurrected and reviewed?
    Mr. Bosworth. Yes, I believe I made a commitment in another 
hearing a couple of weeks ago on the Senate side that we would 
look for that, a copy of that, dig it out, and we would review 
it and provide that, and I would be happy to provide it here as 
well.
    Mr. Peterson. You will provide us with a copy of it?
    Mr. Bosworth. Yes. I haven't seen it yet. I know that--
    Mr. Peterson. They are searching?
    Mr. Bosworth. Yes. I know that there is some out there, but 
I would like to review it first and see whether there are some 
things that we can add to it, and then pass that on.
    Mr. Peterson. Many feel the NEPA regulations were designed 
for a paperwork system many years ago. Do we need to revise 
that, those regs, so they can work in the modern e-commerce age 
today, with how we do business?
    Mr. Bosworth. Yes, I believe that we do need to take a hard 
look at the NEPA regulations for a couple of reasons. First, I 
want to say that I strongly support the National Environmental 
Policy Act, but I think that the regulations that were 
developed some 25 years ago were developed at a time when we 
did not have things like the Internet, we didn't have GPS, GIS, 
and a lot of the other kinds of technology. And I think that 
the way that we developed those, the way that we are operating 
with those rules, may not be the kind of way we ought to 
operate in a more electronic age, but that there are better 
opportunities for interaction with a broader part of the 
public, using the Internet, using some of the interactive kinds 
of things.
    There is an opportunity for people to be able to see data 
tables and do it almost in more of a real-time kind of a thing, 
where our approach has been, you know, we go out and we scope, 
and then we get comments and we analyze those comments. Then we 
go out and develop alternatives, and then we get comments, and 
then we go out and select an alternative, and you know the 
process.
    I think a lot of that could be done more back-and-forth 
with people, using some of the technology that we have today. 
Maybe the kinds of requirements we have for environmental 
impact statements are really outmoded. I would like to be able 
to involve the public in looking for ways that would meet their 
needs better, in terms of being able to work through NEPA and 
come up with solutions that are going to maybe help lead us 
more toward consensus than we have had in the past.
    Mr. Peterson. Well, I think it would help us get to the 
decision-making process a lot quicker, because now it seems 
endless to me.
    Endangered Species Act, do you have plans to try to build a 
working relationship with the Fish and Wildlife Service to 
better work with the Endangered Species Act, or do you have any 
thoughts on that?
    Mr. Bosworth. Well, yes. I don't believe that our working 
relationship with the Fish and Wildlife Service is bad. I mean, 
it really depends upon, often it depends upon how things are 
working locally, you know. And whenever you have people working 
together, sometimes you have got good relationships and 
sometimes you have relationships that become strained. There is 
many examples across the country where the Fish and Wildlife 
Service and the Forest Service are working very well together, 
and there is places where it is strained, and we need to work 
on those places where it is strained.
    I also think that there are some sort of inherent aspects 
of the process that makes it more difficult for both the Forest 
Service and the Fish and Wildlife Service to develop those 
relationships, that I think we need to look at. I would like to 
see us work closely with the Fish and Wildlife Service and 
review the Consultation Handbook and see whether or not there 
are things that can be changed in there that would make the 
whole process work better.
    Mr. Peterson. I know in Pennsylvania, which is a three-
State district, they had two-thirds of a biologist to deal with 
all these endangered species problems that were in three 
States. I mean, there is just no way that it can work timely. 
Because I was pressing them on a couple projects, they said, 
``Well, if you want that project done, then you are not going 
to get your bridges built, because we have problems with all 
the bridges on those two rivers.'' Of course, we helped them 
get some more biologists, but I don't know whether that is a 
problem across the country. In my area they just did not have 
adequate biologists to review the number of projects they had.
    Mr. Bosworth. That is definitely a problem in parts of the 
country where I just came from. In Montana, the Fish and 
Wildlife Service folks there were very good to work with, there 
just weren't hardly any of them, and we had a huge backlog of 
projects simply because there weren't enough people there to go 
through those projects and review them.
    Again, I think if we had folks to work with and they had--I 
mean, the best idea would be to have a Fish and Wildlife 
Service biologist located in every one of our Forest Service 
offices where they are co-located and working together. I mean, 
that would be outstanding, you know, instead of having them all 
centralized in one location and maybe only three or four of 
them, and then--you know, it is different when you are working 
closely together and you are located in the same building. 
There aren't nearly enough of them to do that.
    Mr. Peterson. When we get a Fish and Wildlife Service 
Director, we will suggest that.
    Mr. Kildee from Michigan for 5 minutes.
    Mr. Kildee. Thank you very much, and thank you, Chief, for 
being here today. I have been in Congress 25 years, and really 
we haven't had that many Chiefs. There have been more Cabinet 
officers. The tenure of the Chief has been quite long, and I 
have respected all of them, and I certainly have a high regard 
for you.
    I know in the Ottawa, the Manistee, the Huron, the Hiawatha 
Forests in Michigan, that your people do an outstanding job, 
and they do reach out to the community. Even in times when the 
Federal Government might fall into a little less than high 
repute, they have done an excellent job of reaching out to the 
community and being really good citizens of the area in which 
they have been assigned by the Forest Service, and I greatly 
respect that, particularly because Michigan is trying to 
rebuild its timber industry.
    When my dad was a lumberjack back in the early part of this 
century, Michigan was virtually covered with hardwood and 
Michigan white pine. There is only one stand of white pine in 
the lower peninsula now, about less than 100 acres, the 
hardwood pines. It was all cut, and it wasn't planned.
    But with the Forest Service we are rebuilding a timber 
industry and wilderness, also. My bill, the Michigan Wilderness 
bill, sets aside 92,000 acres of your land that you are in 
charge of, and that was worked out very well, working with 
local people, with your people on the ground doing an excellent 
job. So I have great respect for you and I have great respect 
for the Forest Service.
    Let me ask you one question. Could you expand upon your 
views on prescribed fires. You mentioned that that is one tool 
that you can use. Could you expand upon that?
    Mr. Bosworth. Well, I think that in many parts of the 
country, particularly fire-dependent ecosystems, ecosystems 
that evolved with fire, I think we need to get fire back into 
those systems. The problem is that for a number of years, you 
know, we have suppressed fire, and so we have got large fuel 
build-ups. And so in many cases it is going to take active 
management or some kind of mechanical work, which may be 
thinning or may be some logging, to open up those areas so that 
we can treat the fuels. And when I say treat the fuels, we can 
treat them with fire.
    We need to have good, highly skilled people as we do 
prescribed burning. They need to have developed good fire 
plans. They need to do their burning within those fire plans, 
in other words, work with the plan and don't burn unless you 
are within prescription. And then they need to do a lot of work 
with the communities to make sure that people understand what 
it is they are doing and what kind of work they have gone 
through to make sure that they are doing the job right.
    Every time you do things like, whenever you light a match, 
you are taking some kind of a risk, and we need to be able to 
support our folks, because on occasion there is going to be a 
problem. Hopefully it won't be very often, and hopefully we 
will have followed our rules and followed our plans and have 
done all the things correct, and even then you can end up 
having something happen that you wished wouldn't. So we need to 
recognize that and understand that, but if we are going to deal 
with the fuel build-up that we have and we are going to have 
the kind of healthy forest we want, we are going to have to 
have fire as a part of that.
    Mr. Kildee. So communication with the local units of 
government would be very important before you would have a 
prescribed fire?
    Mr. Bosworth. Absolutely essential, both with the local 
governments as well as local people, just to make sure that 
they understand. People are affected by the smoke that gets 
generated from prescribed burning. Some people are nervous 
about it and worried about it, and we need to work with them 
and help them, again, understand what it is that we are doing, 
and build their confidence in our ability to be able to do that 
job right.
    Mr. Kildee. Thank you. And, as I say, I have worked with 
your predecessors and look forward to working with you. Thank 
you very much for your testimony.
    Mr. Bosworth. Thank you.
    Mr. Peterson. Dale, a common complaint in the system is 
that it is harder and harder to get money on the ground. I 
don't know whether you find that a problem, but that is the 
perception. We have the same complaint in health care. We have 
doctors and nurses doing all paperwork today instead of patient 
care. Do you feel your system has become a bureaucracy that is 
busy fulfilling the paperwork needs and not enough time 
actually out in the forest?
    Mr. Bosworth. Well, yes, I think there is a couple parts to 
that. One is that just in a general sense we need to work 
harder at getting more of the dollars that come to us all the 
way through the different layers of the organization to the 
ranger district and to the ground, and that is something that 
we need, that is a challenge at every level. And I think that 
there are some things that we can do to help move that along.
    Then the next part of the problem is that even when dollars 
do get to a ranger district or to a forest headquarters, how 
much of those dollars actually end up being spent on the ground 
and how much of them are spent doing paperwork and analysis and 
some of those things. I believe that--again, I mentioned this a 
little bit a minute ago--but I believe that an inordinate 
amount is spent in trying to make sure that we can win the 
appeals and win the litigation, and in a lot of cases I don't 
believe that those add much value to the decision that is to be 
made, don't add much knowledge to the decision. They really 
just add time to try to be able to withstand challenges.
    I do not want to imply that I think we ought to short-
shrift decisions or we ought to short-shrift our analysis 
process, but I think that there is a point where you go--that 
any additional information is really just redundant, and that 
you don't need to be doing additional analysis just for the 
sake of doing additional analysis. You end up doing that just 
so you can win in court.
    Mr. Peterson. Well, we are here to work with you and help 
you. Do you believe the planning rule needs to be revised?
    Mr. Bosworth. The planning rule needs to be--needs to have 
some changes made to it. We had a team look very carefully at 
the rule. Most of the principles that are in there, I think are 
good, but once again there is so much additional process 
requirements that would come from that, that I think it would 
be very difficult to implement within any kind of a reasonable 
budget. And what we need to do is take a hard look at that and 
see, and come out with some proposals for some adjustments.
    Again, I don't believe that it is necessarily a major 
overhaul, but I think that there are some changes that do need 
to be made.
    Mr. Peterson. Have you taken any actions to once again 
allow categorical exclusions for timber harvest?
    Mr. Bosworth. I have not taken any actions yet, but I am 
intending to, and I don't know exactly what form that should 
take, frankly. But I do think that we need to have categorical 
exclusions as a tool that would work for commercial timber 
sales.
    I think the problem that we had with our previous one was 
that it was deemed to be arbitrary and capricious because it 
was for I think 5 million board feet or less with no road 
construction that you could get categorically excluded. I think 
what we ought to be looking at is more a categorical exclusion 
based upon the environmental effects that you would anticipate 
rather than a set volume.
    Mr. Peterson. How do you plan to deal with the 
transportation system, the transportation policy? It is one 
that just has to be done somehow, but how do you hope to deal 
with that?
    Mr. Bosworth. Well, the transportation policy, we are going 
to probably come out with a change in our manual, it is really 
our manual system is part of it, that would adjust the time 
frames for getting some of the requirements completed. We 
really haven't decided exactly, you know, all the parts of it 
that we want to change, but we are going to take a look at it 
and see if there are some adjustments that do need to be made 
without--because of the problem or part of the issue there 
would be that, you know, there is a close relationship between 
the roadless policy, between the transportation policy, between 
the planning rule, and we need to make sure as we look at one 
of those, we look at all three of them and make sure that they 
are going to work well together.
    Mr. Peterson. Should the Forest Service take into account 
the economies earlier in this decision process?
    Mr. Bosworth. Take into account the economies? I think that 
as we are doing our analysis and as we are developing 
environmental impact statements, for example, we need to be 
looking both at the social, economic, as well as the ecological 
effects. I do believe that it is important for us to be good 
neighbors, to try to help communities be economically viable. I 
don't believe it is necessarily our responsibility to ensure 
that there are economically viable communities, but I think 
that one of the things that we can do, particularly in these 
places that have a large proportion of a county, for example, 
that is national forest, I think that we have to take into 
consideration the effects that our decisions are making on 
people, both economically and socially.
    Mr. Peterson. Yes, I think that is what the point is. You 
know, when you are the big landowner, when you dominate a 
region, anything you do impacts economically a lot more than if 
you were a small player. I think that is the part that a lot of 
suburbanites and urbanites don't understand. Where a lot of our 
national forest and other public land is, we dominate. We are 
the dominant landowner, and what we do or don't do has huge 
impacts on the quality of life for those communities, and I 
think we all need to be more sensitive there.
    I will now yield to the gentleman from Washington, Mr. 
Inslee.
    Mr. Inslee. Thank you. I wanted to go back to this issue 
about the potential appeal of the roadless area policy and the 
like, and I am just trying to get a handle on who is making 
those decisions. My understanding, the Attorney General, Mr. 
Ashcroft, did pledge to the U.S. Senate in his confirmation 
that he would defend this roadless area, and I would assume 
that would mean that he would appeal it, Judge Adler's 
decision, unless someone tells him not to.
    So I guess I would like to ask you, if he decides to honor 
his pledge and essentially decides to appeal, or intends to go 
forward to appeal this decision, would that be acceptable to 
you? Would you try to tell him that he should not do that, or 
what would you do in that regard?
    Mr. Bosworth. Frankly, there has been a number--there are 
always times when I would like to see something appealed, you 
know, and we just don't believe and our attorneys don't believe 
that we have a good case for appeal. I think that most of the 
choices or most of the decisions that get made about whether or 
not we are going to appeal some court ruling depends upon the 
case and what the judge said, and this particular one hasn't--
you know, we have got the preliminary injunction but we haven't 
had the final ruling yet, and I couldn't say at this point what 
I think.
    Mr. Inslee. Well, has a decision been made by anyone in the 
Administration whether to appeal this, to your knowledge?
    Mr. Bosworth. No, not to my knowledge. I mean, I have heard 
discussion about it, but nobody has told me, that I can recall, 
that it is not going to be appealed. But I frankly am not 
positive about that, what is--
    Mr. Inslee. Well, if Attorney General Ashcroft says, 
``Look, I pledged to the U.S. Senate under oath,'' under oath, 
``to defend this policy,'' and if he comes to you and says, 
``Look, I gave my word under bond to defend this policy, to the 
U.S. Senate, and I've got to go forward and appeal this to 
fulfill my obligation under my oath,'' are you going to tell 
him he shouldn't do that?
    Mr. Bosworth. No, I am not going to tell him he shouldn't 
do that. Again, to me, the thing that I am after is making sure 
that we end up with a roadless policy that protects roadless 
values, that also allows people, local people, to have some 
input about specific areas, to correct some of the mapping 
errors that we believe are there.
    So to me, there needs to be some corrections, and whether 
or not it is appealed or not appealed, to me is not of huge 
significance. What is important to me is that we come up with 
something in the end that is going to work for people, both 
nationally and locally, and I think that can be done. I am not 
sure that, frankly, that in the courts is the place that we are 
going to find the solution.
    Mr. Inslee. Well, let me ask you about that as far as 
input. My understanding is, there were 1.6 million pieces of 
input by American citizens. That was the most input the Federal 
Government has ever had on a policy of this nature. We had over 
600 community meetings. I know in my State you had them in 
Morton and Colville and, you know, some pretty small areas. It 
wasn't just downtown Seattle.
    And I just for the life of me cannot figure out who is left 
out there who, you know, would have any interest in this 
policy, who didn't know about these hearings, to get there and 
give their two cents' worth. And I am also confused about this 
issue of maps. My understanding is, we got these maps years ago 
about areas that had been inventoried as roadless.
    So I guess what I would like to know is, who have you 
talked to who said, ``I didn't know about these hearings. I 
didn't get to give my testimony in time,'' who has told you 
that? I would like to know who they are.
    Mr. Bosworth. Well, we held a number of hearings around the 
country, and almost every one of those were in the larger 
communities.
    Mr. Inslee. Morton, Colville, Washington? Those are 5,000 
people there.
    Mr. Bosworth. If you live in Republic, Colville is a pretty 
big town, and Republic is about 60 miles away from Colville.
    Mr. Inslee. Now, don't start on Republic. My grandmother 
was born in Republic.
    Mr. Bosworth. My son was born in Republic, as well. But to 
the people in Republic that live close to those national 
forests there, Colville is a long ways away, especially if they 
have worked all day long and they don't have a chance to get 
there.
    Now, I am not implying that the 1.7 million comments are 
not important, but I am saying that those people that lived in 
some of those communities like Republic feel like they didn't 
have a chance to talk to somebody or to say something about 
some of those local areas. The 1.7 million comments we got talk 
about the 58.5 million acres, but there are people in some of 
those communities who care a lot about how we are going to be 
managing specific roadless areas, that they don't feel like 
they were really heard very well.
    I am not trying to imply that we ought to go back and 
change all those decisions, but I do believe that as local 
people have information about those particular areas, where 
some of the boundaries aren't correct or there are roads in 
some of those that didn't show on the maps, that we need to 
provide some opportunity for them to have some input.
    Mr. Peterson. Okay. We'll do another round.
    Mr. Inslee. Thank you.
    Mr. Peterson. I want to come back to that issue myself for 
a moment. I have a little different perspective. If my memory 
is correct, we started out at about 30 million acres, and then 
it was 40, and then it ended up being 58. It was like a freight 
train. If it had had another month, we would have had the whole 
Forest Service roadless.
    But when you combine the roadless with the wilderness, you 
have half the Forest Service land that is really not 
inhabitable by people with vehicles, with any kind of 
mechanized vehicles. That would be my view. I guess when you 
have a policy from the top down, like it was, instead of from 
the bottom up. If each forest had been asked, ``Give me the 
acreage that could be made roadless, that is roadless, that 
should be roadless,'' and it had started from the bottom up. 
When you come from the top down, I guess I think that is some 
of the things the judge is talking about. This was a top-down 
process, from my perspective, and it may have been above the 
Forest Service top-down.
    When you get to the conclusion, I mean, I guess I 
understand why the judge kind of threw up his hands and said, 
``I don't see how you can defend this process.'' I mean, yes, 
there were a lot of hearings. There were close to a million 
postcards delivered through an organized process. I know how we 
evaluate those in our office; it is not very high, in 
comparison to people sitting down and writing us a letter or 
calling us up. In defense of it, I would hate to have the job 
of defending 59 million acres and how we got there, if I were 
in anybody's shoes, and I guess I would just like to say that 
for the record. You can comment to it if you want to.
    Mr. Bosworth. Well, I would still like to make sure that 
you understand that I really believe that there are many areas 
out there where roadless values are extremely important, and in 
the end what we have to find is a way to protect those roadless 
values, help people to feel like they have had some part of 
that and engaged in that, and that we do the things that are 
going to make sense to people, to both the broad people, the 
American public, as well as those local folks.
    And so that is what we have got to try to find, is a 
solution. We have been dealing with this roadless issue for 30 
years that I know of, and it is time to try to resolve where we 
are going to have permanent roads and where we are not, so 
there needs to be more work to get that completed.
    Mr. Peterson. The gentleman from Michigan.
    Mr. Kildee. No further questions.
    Mr. Peterson. No further questions?
    We recently had a hearing on community involvement in the 
national forests. What are your thoughts on how we can better 
integrate communities into the decision-making process?
    Mr. Bosworth. Well, there is, of course there is lots of 
ways to try and involve the communities in the decision-making 
process, but I think one of the things that is going to help us 
a lot is the payments-to-States legislation that passed, that 
gives the opportunity to set up the advisory groups. I think 
that starting with something like that that gets these advisory 
groups working, and working with the Forest Service, will help 
set the tone maybe in some places where we haven't been doing 
it quite as well, might help set the tone where we can work 
together between the counties, local government, as well as the 
people, toward the decision-making process.
    I guess I believe that in most cases around the country, as 
decisions get made through the NEPA process, there has been a 
tremendous amount of public involvement. But my hope is that 
through these advisory councils we will be able to make that 
more effective.
    Mr. Peterson. Now, these advisory councils will come from 
who and where?
    Mr. Bosworth. Well, they will be, those counties that elect 
to do that will nominate--
    Mr. Peterson. This will be for each individual forest?
    Mr. Bosworth. Well, they are being designed--they are 
different depending upon what part of the country you are in. I 
mean, it depends partly on how the counties want to do it. Some 
of the counties want to have two or three just by national 
forest. In some cases there is three or four per State; in some 
cases there is more. I don't have the specifics on what each 
region and what each State is going to come out with, but they 
are making those recommendations now and they will be coming 
out with something here in the next few weeks, with the final 
makeup of those. But we would be glad to work with you, because 
I think we do need to involve the people.
    Mr. Peterson. We have been joined by the gentleman from 
Idaho. Mr. Simpson, you are recognized.
    Mr. Simpson. Thank you, Mr. Chairman. I apologize first for 
being late, but I was at another one of those important things 
you have to attend to.
    But I appreciate you being here today. It is a pleasure to 
have someone from the West that knows our forests as the Forest 
Chief. I look forward to working with you.
    A couple of questions. First of all, can you tell me just 
basically if a decision has been made yet on CRP grazing in 
Forest Service? As you know, we have got dry conditions out 
there this year, and last year we burned up some of our grazing 
land, and a request has been made both to Secretary Veneman and 
others that we allow for emergency grazing on CRP land for 
these next 2 years, the cattlemen that have lost their 
allotments essentially because they have been burned. Has a 
decision been made on that yet, or is it relatively close?
    Mr. Bosworth. I am going to have to get back to you on 
that. I don't know if the decision has been made on that or 
not.
    Mr. Simpson. Relative to fires that we had last year, as 
you know we had the largest fires in Idaho and Montana that we 
have had in several decades. What can Congress do to assist you 
in salvaging timber from last year's fires?
    Mr. Bosworth. Well, the job is ongoing right now, and 
through congressional help and through our appropriations, you 
know, we got some dollars to do restoration work in the burned 
areas, which includes some salvage, as well as would include 
watershed restoration, it includes noxious weed work. I mean, 
there is a lot of work that needs to be done. We prioritized 
that work. We are working on those priorities. I don't know 
that there is a lot that Congress could do for this particular 
situation from last year's fires.
    I think that in the longer term what we need to be doing is 
looking at ways of trying to streamline those processes so we 
can get through them quicker, and I have made several 
statements a little earlier about trying to find some ways to 
be able to minimize the amount of analysis that we have to do, 
and that would include for salvage sales, and to be able to 
move forward, to be able to move forward quicker. It would also 
be helpful if we--there are places where we consult with 
regulatory agencies for threatened and endangered species--that 
there are enough folks to consult with, so that they would have 
the staffing that could work real closely with our folks, so 
that we can make those things work quicker, too.
    I am not sure that any of those are going to make a big 
difference in the very short term, but some of those changes 
for sort of the next round of fires and the next round of 
salvage, other kinds of, you know, insect and disease problems, 
would be helpful, though.
    Mr. Simpson. We have had discussions in this Committee and 
other places, relative to those fires, about the need to 
address the overgrowth in our forests, the fuel loads, and to 
get in and do some thinning and some reduction of fuel loads. 
Some people are concerned that in the guise of thinning and 
reducing fuel loads, we will actually use some of the timber 
for commercial purposes. Is that an appropriate means to cut 
trees, to reduce fire possibilities?
    Mr. Bosworth. Yes, I believe it is. It depends upon the 
location and the conditions on the land. I mean, you know, to 
me the issue shouldn't be whether it is commercial or whether 
it is not commercial. The issue ought to be, what is the 
conditions on the ground and what do you need to leave on the 
land, and then what needs to be removed. And if there is 
commercial value in what needs to be removed, then it seems to 
me to make sense to remove it and get paid for it, rather than 
to pay somebody to take it out.
    Mr. Simpson. So your view is that, as you just stated, that 
our first priority ought to be to look at what we want to leave 
there, how we want the land to look afterwards?
    Mr. Bosworth. That is correct. That is, the first thing is, 
we ought to figure out what needs to be left and what condition 
the land should be in. And we know that in some cases that 
means that we are going to need to remove some of that material 
or want to remove some of that material, leaving the right 
amount on the land. If there is value in that material that we 
would like to remove, then it seems reasonable to me that you 
would sell that and defray, help defray the costs of treating 
the land.
    Mr. Simpson. On another subject, what areas do you 
anticipate in the Forest Service budget to be increased, and 
which areas decreased? Do you have any vision of what the 
budget is going to look like in future years?
    Mr. Bosworth. Well, I don't know that I can be real 
specific about that. I think that the whole area of fuels and 
fire, both in terms of our firefighting work force, our ability 
to do fuels treatment, those are areas that I am going to 
continue to want to keep at a good funding level, because that 
is going to be, I think for the next number of years, that is 
going to be an important part of our future, particularly as it 
relates to the communities and close to the communities.
    I think also that recreation is a place where there is an 
untapped opportunity on national forest lands for additional 
recreation, for providing a higher quality of recreation, and 
we need to look at lots of different tools to be able to 
provide that, not just expect that the Congress is going to 
provide the dollars, but that is one of the places that we had 
hoped to get some good appropriations.
    Mr. Simpson. What about in the area of road maintenance? As 
you know, one of the arguments for the roadless issue is that 
we have a huge backlog in road maintenance, and consequently we 
can't maintain the roads we currently have. Building additional 
ones just means we have more we can't maintain. Are we going to 
see an increase or a requested increase in maintenance for the 
backlog in road deterioration?
    Mr. Bosworth. Well, we are going to, through looking at the 
road system that we have, we need to first identify which roads 
we need to keep and which roads are no longer needed and that 
people don't want and that need to be decommissioned and 
eliminated. And we get some dollars for doing that now, but we 
still need to identify which of those roads are necessary. I 
mean, it is really important to figure out what road system you 
really need, and then those that you don't want or don't need, 
that are particularly causing some trouble, you need to take 
care of those through decommissioning and restoration.
    I think there are other tools that we need to look at for 
sources of funding or other places we need to look for sources 
of funding. For example, the T-21 dollars might be a place that 
would help. I think there is ways of using some of their 
dollars that we get to try to help with some of that, some of 
the backlog of road work, too.
    Mr. Peterson. I will give you the Chair in a few minutes 
and you can ask all the questions you want.
    Mr. Simpson. Okay.
    Mr. Peterson. Congressman McInnis asked me to apologize for 
his absence today. He couldn't be here.
    I wanted to inquire about the status of a request made by 
Congressman McInnis and a number of other western lawmakers, 
that this Administration set aside the Forest Service existing 
bypass flow policy. What is the status of that?
    Mr. Bosworth. Well, right now, I mean, basically I guess 
what I would say is that the Forest Service needs and believes 
we have the discretion for bypass flows, and I also want to say 
that we also believe that it is very, very important that we 
recognize people's water rights. And I think that everybody 
would agree that when it comes to water and particularly water 
in the West, that that is a huge issue, and you can get into 
big trouble real fast if you start messing with somebody's 
water rights.
    So we need to be very, very thoughtful about how we deal 
with people regarding those water rights, and don't want to 
imply in any way that we would want to try to take away 
anybody's water rights. On occasion there will be special use 
permits where we have the expectation and the requirement, or 
at least the expectation that there may be some need to make 
sure that we are doing the things that need to be done on the 
land.
    And so we are going to, and very, very seldom, but on 
occasion we need to do some things to try to address those 
potential adverse impacts that could occur. My view is that it 
is very seldom that we do that, but on occasion there may be a 
need.
    The best way to try to work through these issues, I think, 
when we are working with water issues, the best way is to try 
to work with the folks who have the water rights, and when we 
have a special use permit application, we need to try to take a 
good hard look at what the adverse, potential adverse impacts 
might be, and try to find ways of mitigating those, working 
with the special use permittee. That is really the best way. 
The best way is always to try to do it in a cooperative way, to 
meet their needs, to meet the needs that we have, as well.
    Mr. Peterson. Do you envision a return to the Madigan 
policy?
    Mr. Bosworth. I don't know the answer to that at this time.
    Mr. Peterson. Okay. I am going to have to leave, and I am 
going to give Mr. Inslee another round, and Mr. Simpson is 
going to take over. But as Vice Chair I want to share with you 
that I would like to recommend to our Chairman that we have you 
back with some regularity. I hope you would be willing to do 
that so we could have a continuing dialogue and work together 
to accomplish, and to fix some of the problems that we have to 
deal with. I hope you would be willing to do that, come back 
and visit with the Committee with some regularity.
    Mr. Bosworth. I would be more that willing to.
    Mr. Peterson. Mr. Inslee, for another 5 minutes.
    Mr. Inslee. Thank you. I appreciate you bringing up 
Republic, Washington. It was where my great-grandfather was a 
mining engineer there, and I am familiar with it, and I know 
they have got a post office. And I guess the question is, tell 
me who has told you that they didn't have an opportunity in 
some fashion to give input to the Federal Government before 
this roadless area policy was directed. Tell me who they are, 
and why they couldn't phone, write, e-mail, carrier pigeon, go 
to a hearing, something. Who are they?
    Mr. Bosworth. Well, again, you know, I can't sit here and 
start listing out names of folks, but I can tell you that both 
through letters and comments as well as things that I have 
heard in meetings with larger groups, that some people felt 
like--I am not saying it is accurate, but people had that 
feeling, many people who lived in the more rural locations, 
that they didn't have an opportunity to talk about or to be 
listened to about areas that they were particularly concerned 
about.
    Again, when you are looking at 58.5 million acres, some 
people didn't feel like that those places that they were 
particularly concerned about, they just felt like they got 
washed into the whole thing, and there wasn't an opportunity to 
talk about some of the specific aspects of those areas that 
they were particularly concerned about.
    Mr. Inslee. Well, let me suggest that the fact of the 
matter is, is they didn't get their way. They had an 
opportunity to have input and they didn't win the battle, and 
sometimes that happens. So I need to ask you about the future. 
You had 600 meetings, and now you have reopened the process. Do 
you intend to have another 600 meetings?
    And regardless of how you intend to seek input, if a 
preponderance of Americans give you their advice, that they 
want to hew to the original policy as adopted by the last 
administration, will you listen to those Americans and hew to 
the original policy without amendment?
    Mr. Bosworth. Well, I guess what I think we need to do is, 
we need to look at an amendment to the rule and come out with a 
proposal that would amend the rule, and that amendment would go 
through public involvement, and that amendment could take on 
several different characteristics.
    But primarily it seems to me that the amendment would want 
to propose to use the forest planning process to try to make 
sure that the data and information is accurate. If there are 
needs to make some adjustments on a case-by-case basis, that it 
would allow that to occur. But again, what needs to happen is 
that that amendment needs to go forward with public involvement 
and then come up with a final adjustment to the rule, and then 
if that, if the process that is agreed upon or decided upon 
would allow the forest planning process to make those 
adjustments, then that would be the case.
    Mr. Inslee. Well, I guess I am going to ask the question, 
the same question, because this is a very important issue and I 
would like your input on this. You had 600 meetings and you 
came up with this rule. Now, if you are really interested in 
what Americans think about this--and I can tell you what they 
think about it. They want the rule that was adopted, by about 
70 percent. That is what they think.
    Are you going to have another 600 meetings where that 70 
percent of Americans can express their desire, and if they do 
and tell you what I believe they will, which is a very strong 
preponderance want to hew to the strong roadless policy that 
was in that rule before this Administration came in, are you 
going to accept their direction and hew to the original rule 
without amendment?
    Mr. Bosworth. We are kind of getting into speculation about 
what people might say and might not say, and I don't know that 
I can really--you know, I don't know that I really want to 
respond to sort of a speculative thing about what people might 
say. But whatever approach we would take, whether it be an 
amendment to the rule, and whether forest plan adjustments or 
revisions would take place, I think that any of those things 
have to deal in an open public process where we are listening 
to people, where people have the opportunity to make comments. 
I don't think we ought to, there would be no way that I would 
want to propose that any kind of amendment be considered 
without considering what the public has to say about it.
    Mr. Inslee. Do you intend to have the same level of input 
from the public, the same number of meetings, for instance, in 
the same locations? And the reason I ask you this is, frankly, 
when you have got 70 percent of Americans wanting this rule, 
this Administration ignoring that public sentiment and going 
forward to contravene the rule that was going to take place, we 
are concerned you are going to get, you know, 314 letters from 
the timber industry and call it a new rule, and not have a 
chance for that 1.6 million people to give you their input 
about what they think about your cutting the legs out from this 
rule.
    Mr. Bosworth. You know, again, I don't think that in any 
process should we imply that, okay, now we are going to only 
talk to local people and we are going to exclude the rest of 
the folks. I think that we need to listen to all people, and--
    Mr. Inslee. So you are going to have those 600 meetings?
    Mr. Bosworth. Well, you know, if we held the 600 meetings 
again in the 600 locations, we would probably be excluding the 
same people that felt like they were excluded before, felt like 
they were disadvantaged in terms of having the opportunity to 
comment. So I am not sure that that would really provide the--
that would not necessarily solve the problem.
    Again, if you are looking at it say on a forest-by-forest 
basis, holding 600 meetings around the country wouldn't 
necessarily help provide site-specific information about those 
particular roadless areas. Remember, part of the issue here is 
whether or not there is specific information, local 
information, local knowledge about a specific roadless area 
that would be helpful to know. In some cases we have got roads 
in some of the roadless areas. There are some places where 
there is an area that is roadless, that is part of the 
inventoried roadless, that does have roads in it. Some of the 
folk, local folks, may be aware of that and may like to have us 
consider that.
    Mr. Inslee. Mr. Chair, I would like one more question on a 
different topic, or maybe even two.
    Mr. Simpson. [Presiding.] Sure, as long as it is a 
different topic.
    [Laughter.]
    Mr. Inslee. Okay, a different topic. On fire suppression, 
removing of fuels, you have made a point that we need to remove 
some of these fuels from the forest floor. It may include some 
timber removal, as well, from the smaller diameter logs. As you 
know, there is a concern that if we go down that road, that the 
policy on what is cut or not cut may become driven by (a) 
either commercial logging interests or (b) even a self-interest 
to some degree by the Service that reaps the benefit of these 
sales, because of the trust fund situation.
    It made me think that to really get to a policy that people 
have confidence in on sort of both sides of the equation, we 
have to develop some mechanism where that incentive doesn't 
exist to decide what is cut and is not cut, either the Forest 
Service sort of internal incentive to maximize the trust fund 
proceeds, or the commercial entity's incentive for logging and 
commercial timber sales. What we want is a science-based policy 
about removing fuels where we need to do so, and not where we 
don't.
    I would just like your comments about, if we were to design 
that, what do you think is the most effective way to do that, 
or what you were thinking about, at least, to try to create a 
system where we don't have those false incentives and we make 
this decision based on science.
    Mr. Bosworth. Well, first, I do believe that we do make 
decisions based upon science. I also know that there is a 
feeling by a lot of people that we have these incentives to do 
some of the wrong things. I believe that those get blown out of 
proportion.
    But the fact is that if a lot of our own work force is 
dependent upon trust funds, then the appearance would be that 
we want to keep those trust funds up so that we can keep paying 
our employees. And I understand why that perception of that 
incentive is there. I think one of the things we need to do is, 
we need to make sure that our permanent work force isn't 
dependent upon trust funds but they are funded through 
appropriated dollars, and I think that would help with that 
perception some.
    I think that there are other tools that we can use, such as 
stewardship contracting, which I believe would give us the 
opportunity to get work done on the ground, based upon the 
value of some of the material. I mean, that would be one of the 
aspects of it, where it is an end results approach, where we 
have worked at it in a collaborative way. We look at all the 
kind of management that needs to be done on that chunk of 
ground, and working with the public, decide what that is. And 
then if there is value to the material that is going to be 
removed, that value helps pay to get the job done. Now, while 
some may say that that is an incentive as well to cut big 
trees, I don't think it should be perceived that way, because 
it would go into the ground and not into the salaries of agency 
people.
    So I think we need to look at some new and different tools. 
We have done some experimenting with contract logging, for 
example, where through a regular service contract we remove the 
trees that we had identified to be removed, and then they are 
sold separately from a log deck. There is problems with that, 
that we learned, but we may be able to improve upon that 
process. It also takes a lot more money up front to do it, but 
there is different ways that we can experiment with to try to 
make sure that people believe that the kind of prescriptions 
that we are putting on the ground are really based upon the 
science and not just upon some kind of perverse incentive out 
there.
    Mr. Inslee. Thank you, and by the way, I want to express my 
thanks to your personnel. Your personnel are right next to my 
office in Mountlake Terrace, Washington, and I can tell you 
they are hard-working folks and we appreciate their efforts. I 
don't want to mean any disrespect to their efforts, but I think 
this is an important issue and wanted to talk to you some more 
about it. Thank you, Mr. Bosworth.
    Mr. Bosworth. Thank you.
    Mr. Simpson. Mr. Bosworth, that is an interesting subject 
that the Ranking Member just brought up, my good friend from 
Washington, science-based decisionmaking. Are there other 
things that go into the decision on a roadless policy, other 
than public opinion? Should science have a role in that 
decisionmaking, and other types of things?
    Mr. Bosworth. Yes, I believe that whenever you are talking 
about land management decisions, that there is a science base 
to those decisions. There is also social and economic 
considerations as well as ecological considerations, and then 
the research, both social and economic research as well as 
natural resource research, that ought to be a part of the 
decision process.
    Mr. Simpson. So if we just did a poll and 70 percent of the 
people said, ``Keep the roadless rule as it exists,'' that is 
not necessarily the final decision. I mean, there are other 
factors that go into making that decision, are there not?
    Mr. Bosworth. Well, yes. You know, one of the things that 
we like to point out often is that the public involvement 
process is not necessarily or should not be considered to be a 
vote process. What we really need to do is to get input from 
people in order to provide better information so that we can 
make a decision.
    Often when we have some big issue that we are dealing with, 
we will get a lot of cards and a lot of comments that say yes 
or no but don't provide any additional thoughts and ideas, or 
it is just pretty much my opinion, which is okay. Opinions are 
good, too, but it doesn't add to the information base in terms 
of things that we might have considered or should have 
considered. So we need to evaluate those comments and glean out 
of them what we can, but we still have to make a decision in 
the end that may or may not go with sort of the ``vote.''
    Mr. Simpson. During this last round of hearings and so 
forth, and the comments that were received, 94 percent of those 
were from postcards and e-mails. The actual letters that came 
with some analysis other than just, you know, yes or no and 
that type of thing, were overwhelmingly, as I understand it, 
opposed to the roadless rule.
    You also mention that economics are a consideration in 
this, local economics and so forth. When you decide to have a 
roadless rule that sets aside 8.5 to 9.5 million acres in 
Idaho, and I realize these are public lands, public forests, 
the economic impacts obviously are on the small communities 
surrounding those public lands. Should an e-mail from Florida 
have as much weight as one from a community that is ultimately 
affected by that, that lives and makes a living off the land 
and affects their economy and so forth?
    Mr. Bosworth. I get asked that question a lot by members of 
the public, and it is always a difficult one to answer, because 
these are national forests and the person that is living in 
Florida has an equal right to have a say about how that piece 
of land ought to be managed.
    Mr. Simpson. I agree.
    Mr. Bosworth. At the same time, we need to give 
consideration to how those decisions are going to affect local 
people. Their daily lives are affected by those decisions. It 
doesn't mean that somehow you weight it two to one or three to 
one, but you need to understand the effect that that decision 
is going to have on local people, and understand what ways you 
might have to try to lessen those effects.
    So to me it is not a matter of whether it is equal or a 
little bit more, a little bit less, but people are going to 
come from a different place with different perspectives, 
depending upon what their particular situation is, and we need 
to understand and consider that.
    Mr. Simpson. Which I guess lends credence to the thing that 
it is not just a popular vote, it is not just how many people 
vote one way or another, it is a total consideration of the 
effect of the rule.
    Do you think it is possible to do an EIS in 1 year on 58 
million acres of land?
    Mr. Bosworth. Well, we got one done. I mean, it--
    [Laughter.]
    Mr. Simpson. Let me rephrase that. Do you think it is 
possible to do an adequate EIS on 58 million acres? And the 
reason I ask this is, we are, the Forest Service is sued 
repeatedly by environmental groups for inadequacies of the EIS 
and the need for process and other things like that.
    Apparently not just the Administration had concerns about 
this rule and the way it was developed. Judge Lodge in Idaho 
apparently had some concerns with it also. And I am wondering 
if it is just that now the shoe is on the other foot a little 
bit. The decision is being made about the inadequacy of the EIS 
and the need for process. If you can really do something on 58 
million acres of land, as diverse as the Tongass, from Alaska 
to Idaho to other areas that are roadless, that seems to me 
like a huge task to try to accomplish in 1 year and do an 
adequate job.
    Mr. Bosworth. Well, of course the adequacy in the end is 
decided by the court. And I think that the effort that folks 
that worked on the environmental impact statement in that 
period of time, I think they did an amazing job for such a 
short period of time to get through that.
    At the same time, we know that we have had difficulty in 
other situations. In the RARE-2, California v. Block decision, 
we were found to have been inadequate. We will find out in the 
end in the court on this whether it is adequate or inadequate.
    And so from my perspective that is really sort of a call 
that the court has to make about the adequacy, but it is a 
tough challenge to be able to do it.
    Mr. Simpson. Two other things that I want to bring up, not 
associated with the roadless rule. One of them is, we talked 
about water rights, and I know from experience in Idaho what is 
going on, and I don't know that you have an answer to this or 
anything else. But one of the concerns we have is, we are going 
one of the largest basin adjudications in the Snake River Basin 
that there is.
    Because the Federal Government does not have to pay a 
filing fee for claiming a water right, they claim large numbers 
of water rights which they are frankly not serious about. The 
State of Idaho spends tons of money preparing to defend against 
those claims of water rights, and then when they get ready to 
go to court, the Federal Government, whether it is the Forest 
Service, the BLM or whoever, all of a sudden drops about half 
of those and says, ``We weren't serious about those to start 
with.''
    And I know there has been some contention about whether the 
Federal Government ought to pay a filing fee, as the private 
claimants of a water right have to, or not. But it is a concern 
of mine that because there is no penalty to the Federal 
Government, and they have more lawyers back here than we can 
count trees in Idaho, they are more than willing to claim water 
rights, which imposes costs on the water right users in Idaho.
    Mr. Bosworth. Well, I don't know if I can comment on the 
desirability of having a filing fee. You know, from my 
perspective I would rather not have a filing fee. But I can 
tell you that I believe that the water rights filing that was 
done in the Snake River, that the Forest Service believed that 
those were valid requests or filings.
    I don't believe that it was done in a way that was intended 
to be without thought and with the idea that, ``Well, we'll 
just pull them out if we don't want to.'' I think as time went 
on and information was gathered and other rulings were made, 
then there were some decisions made to withdraw some of those 
for a number of reasons, but I don't think that they were 
originally filed--I don't think they took that lightly. I think 
those were serious filings that were done. I realize that it 
does put the Federal Government in a little bit different place 
than other people who have to pay a filing fee.
    Mr. Simpson. I appreciate that, and that is an issue we are 
working on.
    The second one is that in talking to the past 
Administration, the Forest Chief and so forth, their concern 
was, and I think it is the concern of many of us, that we are 
spending so much money on litigation rather than on actually 
improving the forest condition. How do you propose to go about 
reducing the amount of litigation?
    And I realize that you are not going to take away rights of 
people to sue and that kind of stuff, and it seems to me the 
only way you can get at it is to make sure people feel that 
they have an adequate input in decisions that are made by the 
Forest Service up front. Local people, people across the 
country, they have got to feel like they were active 
participants in decisions that the Forest Service makes. And 
even if the decision sometimes goes against them, if they feel 
like they were adequately consulted, it might not result in 
lawsuits.
    But unfortunately we have got into this situation where you 
bring people to the table, somebody doesn't like what is being 
discussed, they walk away because they know they are going to 
file suit. It doesn't matter what the decision is. And I am 
concerned about the amount of money we are spending on lawsuits 
and the Forest Service is spending on lawsuits that could go 
into improving our forests.
    Mr. Bosworth. Well, I am very concerned about both the cost 
of litigation as well as the cost of the process that we go 
through in order to be able to withstand litigation, to do work 
on the ground. I mean, it is a problem. I agree that we don't 
want to take away people's rights to take our decisions to 
court, and they have that right.
    I think that the solution, though, is more in what level of 
analysis and information is required in order to be able to 
withstand the challenges. We have an appeal process. Then we go 
to litigation. We have a huge amount of data, information that 
is required and analysis that is required, in order to win in 
court, and I think that that high bar of analysis and work just 
encourages more lawsuits.
    Because if people believe that ``I don't have to 
collaborate, I don't have to try to work together, because in 
the end I'll get what I want through a lawsuit,'' then we will 
never be able to get people to the table and really try to 
resolve issues in a productive way. If I can get what I want 
some other way, then why do I need to compromise or why do I 
need to collaborate? And I think that we are in a situation 
where, as I said, the bar is so high that most people would 
believe they can get what they want by going to court in most 
cases.
    Mr. Simpson. Have we made the process so cumbersome that it 
just opens it up to lawsuits every step of the way? And are 
there reforms that ought to be made in the different processes, 
whether it is EIS or NEPA or anything else, to come to the same 
end we all want to, but to reduce the likelihood of litigation?
    Mr. Bosworth. Well, yes. I mean, my belief is that we do 
need to take a really hard look at the NEPA regulations and at 
the case law that has evolved, and to see whether or not there 
are some other ways that would be satisfying to people from all 
sides of the discussion, that would work better, that would 
come up with solutions on the ground or in a conference room 
rather than in a courtroom. Because in the end I don't think we 
end up with good decisions when we continually have to go to 
court, and the decisions aren't particularly satisfying to 
people.
    Mr. Simpson. Thank you.
    Mr. Inslee. Just one hopefully constructive question. A 
concern I think folks may have as far as where we go from here 
on the amendment process is that let's say we get five letters 
from Republic, Washington, saying ``We'd like you to take 40 
acres out of this because that is where we do XYZ,'' and there 
is really no chance for the rest of the public to comment on 
that issue, not knowing that is sort of on the table for 
discussion in the context we are in right now.
    What could you do to ameliorate that potential situation, 
so that the public knew that these certain issues are on the 
table? We have been, you know, like we have been approached by 
one group that wants access to this water system, so that the 
public would know that if they have an interest in that, they 
ought to make some comment. Do you see what I am getting at 
here, the concern that I think people may have? And what could 
you do to potentially, at certain times, for instance, list an 
issue with comments you have received to date on certain 
issues, or is there any way you could give people a heads-up so 
they can get their input on those kind of things?
    Mr. Bosworth. Well, my view, and again it would depend on 
how any amendment to the rule would come out in the end, but 
you were using the forest planning process to make any kinds of 
adjustments, the planning process expects and requires a lot of 
notification and public involvement and proposals and public 
meetings and all sorts of things.
    Again, to me it is not--and it is also not the case of 
somebody saying, ``Well, there's 40 acres here that I would 
like a road.'' To me, the more important is whether or not some 
people with local knowledge say, ``Well, wait a minute, the 
boundary that you've got coming down through here isn't in the 
right place, because there's roads in there,'' or the 
circumstances are different than what you thought when you were 
looking at 58.5 million acres. The circumstances on this 
particular piece of land is not described the same way as what 
was thought, and there is some local information and local 
knowledge that could be part of the consideration.
    Now, that doesn't mean that people from Florida who have 
information about the Colville National Forest couldn't 
comment, too, but there is value in finding out specific 
information about that particular forest and those particular 
roadless areas, that anyone who has knowledge about that could 
be helpful.
    Mr. Inslee. Obviously, I would urge you in any way, shape 
or form to give people adequate notice of things that are on 
the table. I think that you could run into a real hornet's nest 
if that does not occur, and I urge you to be as open as 
possible in that regard. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you, and I do want to thank you, Mr. 
Bosworth, for coming today. And as Mr. Peterson said, I look 
forward to working with you and having you back before the 
Committee to talk about what is going on in the Forest Service. 
Obviously it is very important, not only to those of us in the 
western States but all across the country.
    And I want to compliment you on your resume. You may be the 
first individual that has such a complete resume within the 
Forest Service. It seems like you know every level of it, and 
we look forward to working with you very much.
    Mr. Bosworth. Thank you.
    Mr. Simpson. If there is no further business before the 
Subcommittee, the Chairman again thanks the members of the 
Subcommittee and Mr. Bosworth, and the Subcommittee stands 
adjourned.
    [Whereupon, at 5:10 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
